U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

May 12, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Gerald Scott v. United States of America,
S.Ct. No. 20-7778

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 31,
2021, and placed on the docket on April 15, 2021. The government’s response is due on May
17, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 16, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7778
SCOTT, GERALD
USA

MATTHEW B. LARSEN
DEPUTY PUBLIC DEFENDER
52 DUANE STREET
NEW YORK, NY 10007
213-894-2911
MATTHEW_LARSEN@FD.ORG
SAMUEL C. LEIFER
WILMERHALE
60 STATE STREET
BOSTON , MA 02109
617-526-6552
SAMUEL.LEIFER@WILMERHALE.COM
617-526-5000(Fax)

